TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The End-User Equipment and Services
                   Organization Successfully Planned Its
                Reorganization; However, Program Measures
                     and Efficiencies Can Be Improved



                                         August 14, 2012

                              Reference Number: 2012-20-086




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


THE END-USER EQUIPMENT AND                           also developed a balanced scorecard measure
SERVICES ORGANIZATION                                summary that aligns strategic objectives with
SUCCESSFULLY PLANNED ITS                             performance measures. However, EUES
REORGANIZATION; HOWEVER,                             organization management can take additional
                                                     steps to advance cost-effectiveness and
PROGRAM MEASURES AND
                                                     program efficiencies within the Customer
EFFICIENCIES CAN BE IMPROVED                         Service Support Centers.
                                                     WHAT TIGTA RECOMMENDED
Highlights                                           TIGTA recommended that the Chief Technology
Final Report issued on August 14, 2012               Officer: 1) implement additional measures to
                                                     help demonstrate cost-effectiveness (e.g., cost
                                                     per interaction) and efficiencies and to identify
Highlights of Reference Number: 2012-20-086
                                                     opportunities for improvement, and
to the Internal Revenue Service Chief
                                                     2) collaborate with IRS management and the
Technology Officer.
                                                     National Treasury Employees Union to mandate
IMPACT ON TAXPAYERS                                  the use of the self-help password management
                                                     tool for those customers with access to the tool.
The End-User Equipment and Services (EUES)
organization reorganized to ensure it provides       IRS management agreed with the
high-quality, responsive, and cost-effective         recommendations in this report and plans to
information technology customer support              conduct research to determine if data are
comparable to industry standards. While the          available that will enable additional
EUES organization successfully implemented           measurement of cost-effectiveness and
the reorganization, its business processes           efficiencies and, if available, implement such
continue to evolve and mature. As a result, it       measures. IRS management also plans to
may take some time before the EUES                   establish a policy to mandate the use of the
organization’s performance measures and tool         self-help password management tool for
utilization demonstrate maximum efficiencies         customers with access to the tool.
gained. By improving the utilization of its tools
and measures, the EUES organization will more
efficiently use its budget dollars to provide user
support.
WHY TIGTA DID THE AUDIT
This audit was initiated at the Chief Technology
Officer’s request to evaluate the personnel
placement and mitigations associated with the
reorganization of the EUES organization. Since
the reorganization also addressed business
process improvements, TIGTA included them in
its review.
WHAT TIGTA FOUND
The EUES organization planned an effective
approach to its reorganization. For example, it
provided mitigation strategies to EUES
organization employees affected by the
reorganization and training to those employees
placed into new positions within the EUES
organization. EUES organization management
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 14, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The End-User Equipment and Services
                             Organization Successfully Planned Its Reorganization; However,
                             Program Measures and Efficiencies Can Be Improved
                             (Audit # 201120018)

 This report presents the results of our review of the End-User Equipment and Services
 organization’s reorganization efforts. The objective of this review was to evaluate the
 effectiveness and efficiency of the new business processes and the implementation of personnel
 placement and mitigations associated with the reorganization of the End-User Equipment and
 Services organization. The Chief Technology Officer suggested we review the personnel
 placement and mitigation strategies. This audit was included in our Fiscal Year 2011 Annual
 Audit Plan and addresses the major management challenge of Modernization.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                                The End-User Equipment and Services Organization
                                Successfully Planned Its Reorganization; However,
                               Program Measures and Efficiencies Can Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The End-User Equipment and Services Organization
          Planned an Effective Approach to Its Reorganization .................................. Page 3
          Management Can Take Additional Steps to Advance
          Cost-Effectiveness and Program Efficiencies Within
          the Customer Service Support Centers ......................................................... Page 8
                    Recommendations 1 and 2: .............................................. Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Illustration of End-User Equipment and Services
          Organization (Pre-Reorganization) ............................................................... Page 16
          Appendix V – Illustration of High Performing Organization
          (Post-Reorganization) ................................................................................... Page 17
          Appendix VI – Glossary of Terms ................................................................ Page 18
          Appendix VII – Management’s Response to the Draft Report ..................... Page 21
         The End-User Equipment and Services Organization
         Successfully Planned Its Reorganization; However,
        Program Measures and Efficiencies Can Be Improved




                  Abbreviations

CSSC        Customer Service Support Center
EUES        End-User Equipment and Services
GS          General Schedule
IRS         Internal Revenue Service
IT          Information Technology
KISAM       Knowledge Incident/Problem Service Asset Manager
MITS        Modernization and Information Technology Services
MOU         Memorandum of Understanding
NTEU        National Treasury Employees Union
TIGTA       Treasury Inspector General for Tax Administration
                           The End-User Equipment and Services Organization
                           Successfully Planned Its Reorganization; However,
                          Program Measures and Efficiencies Can Be Improved




                                           Background

According to the End-User Equipment and Services (EUES)1 organization’s mission statement,
the EUES organization provides reliable, secure, cost-effective personal computing technology
and services to the Internal Revenue Service (IRS) workforce in support of its mission. The
EUES organization began reorganizing in September 2009 and now consists of Customer
Service Support, Operations Service Support, and Business Services and Management offices.
Almost 70 percent of the staff reports to the Customer Service Support office.
The EUES organization describes the mission of the Customer Service Support office as follows:
delivers effective and cost-efficient Information Technology (IT) services in accordance with
negotiated Service-Level Agreements2 to IRS end users. Eight subordinate offices (six of which
provide geographic coverage) conduct the following functions:
       Resolve end-user incidents and problems – remotely and via on-site support.
       Ensure standard delivery of programmatic refresh of the end-user computing environment
        and work with the Service, Asset, and Configuration Management office to maintain the
        accuracy of assets throughout their life cycle.
       Develop, design, and manage solutions/knowledge that facilitate rapid resolution of
        end-user incidents and problems.
       Establish and communicate policies related to the Customer Service Support Centers
        (CSSC), Operational Planning and Control, and Solutions Design and Development
        activities in the areas of Knowledge Management, Vendor Support, and Problem
        Management.
Each CSSC consists of Service Desk and Deskside groups. Both groups will provide prompt and
professional resolution of IRS end-user incidents and problems. The Service Desk serves as the
single point of contact for all IT incidents and service requests. As such, the Service Desk
performs triage of all incidents and uses remote tools to resolve incidents and fulfill service
requests while customers are on the telephone. Sometimes, the Service Desk must involve a
Deskside employee who must physically touch a workstation in order to resolve the incidents or
fulfill service requests.
This review was performed at the EUES Headquarters office in Washington, D.C., and the
CSSC sites in Chamblee, Georgia; Chicago, Illinois; New Carrollton, Maryland; and

1
  On April 22, 2012, the EUES organization merged with the Enterprise Networks organization to form the User and
Network Services organization.
2
  See Appendix VI for a glossary of terms.
                                                                                                        Page 1
                       The End-User Equipment and Services Organization
                       Successfully Planned Its Reorganization; However,
                      Program Measures and Efficiencies Can Be Improved



Memphis, Tennessee, during the period May 2011 through April 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                         The End-User Equipment and Services Organization
                         Successfully Planned Its Reorganization; However,
                        Program Measures and Efficiencies Can Be Improved




                                  Results of Review

The End-User Equipment and Services Organization Planned an
Effective Approach to Its Reorganization
In February 2005, the IRS Office of Competitive Sourcing initiated an Office of Management
and Budget Circular A-76, Performance [Competition] of Commercial Activities (hereafter
referred to as A-76),3 study of the seat management functions within the EUES organization. In
November 2006, the IRS determined that it would not proceed with a public-private competition
of its EUES organization under A-76. Although the A-76 competition was canceled, the EUES
organization realized it still needed to improve its seat management services. Thus, the
organization continued with a business process reengineering effort hoping to provide its seat
management services at improved levels of service delivery and cost-effectiveness.
The EUES organization formed a special team to proceed with its reengineering efforts from
September 2007 through August 2009. During this time, the team prepared and delivered several
options describing how the end state could be achieved. The EUES organization’s options
considered performance goals, risks, and costs associated with the reengineering. EUES
organization management decided to develop a “High-Performing Organization” built upon
reengineered service delivery processes, updated technology tools, and industry best practices.
This organization design focuses on centralized service desk support, consolidated on-site
support in high-density customer locations, and contracted support for low-density customer
locations. More specifically, the new organization blueprint:
       Redistributes employees between field support and service desk.4
       Combines service desk and field support into one command-and-control structure.
       Follows the industry best practice IT service management model – Information
        Technology Infrastructure Library.®
       Institutionalizes continual process improvement functions.
Two other key considerations included:
       Maximizing placement and retention of skills aligned with transition of work.


3
  Office of Management and Budget, OMB Circular No. A-76 (Revised), Performance of Commercial Activities
(May 2003) (including changes made by OMB Memorandum M-07-02 (Oct. 2006) and a technical correction made
by OMB Memorandum M-03-20 (Aug. 2003).
4
  See Appendices IV and V.
                                                                                                 Page 3
                             The End-User Equipment and Services Organization
                             Successfully Planned Its Reorganization; However,
                            Program Measures and Efficiencies Can Be Improved



          Balancing the existing Customer Support workforce [General Schedule (GS)-11 and
           GS-12] with the introduction of a new Customer Support position (GS-9).
Because of the foreseeable impact a process reengineering and organizational change would have
on the workforce, EUES organization management consulted with the IRS Human Capital
Office. The IRS Human Capital Office provided guidance and counsel during the draft,
planning, and implementation phases of the reorganization. In addition, members of the IRS
Human Capital Office participated in weekly steering committee meetings during the planning
phase. Further, the IRS Human Capital Office provided information on available mitigation
strategies allowed by rule or regulation and assisted with negotiations between the EUES
organization and the National Treasury Employees Union (NTEU) during the drafting of the
Memorandum of Understanding (MOU).
EUES organization management also coordinated with representatives of the NTEU. The NTEU
assists with protecting the rights of its bargaining unit members, and there is an agreement in
place between the NTEU and the IRS outlining when the NTEU needs to become involved with
events affecting employees. Thus, with the EUES organization taking on a reorganization,
introducing modified positions, and realigning existing staff, it became important to engage the
NTEU. The EUES organization and the NTEU participated in meetings throughout the
reorganization process and as outlined in the MOU. The EUES organization also provided the
NTEU with data on the placement of employees as the reorganization unfolded.

Impacted employees were provided mitigation strategies during placement into
the reorganized EUES organization
The EUES organization established a baseline of 1,292 employees, of which approximately
1,100 were bargaining unit employees.5 In April 2010, the Director, Operations Service Support,
EUES, and the Assistant Counsel for Negotiations, NTEU, signed an MOU that detailed the
processes for placement of employees into the new EUES organization. Some of the mitigations
or placements offered included realignment, voluntary retirement/separation (for those deemed
eligible), preference placement, voluntary or involuntary reassignment, and competitive
placement. The MOU remains in effect until September 30, 2012, or until all actions required
for implementation have been completed.
As of December 2011, the EUES organization placed 1,211 of its employees into the new
structure. Figure 1 provides a summary of the placement steps for the 1,211 employees.




5
    The baseline was established in October 2009.
                                                                                         Page 4
                            The End-User Equipment and Services Organization
                            Successfully Planned Its Reorganization; However,
                           Program Measures and Efficiencies Can Be Improved



           Figure 1: Summary of Placement of EUES Organization Employees

          Placement Step                    Description of Placement                  Number of Employees

  Realignment                  The movement of employees in their position and                         43
                               work duties (no change to title, pay, grade, series,
                               or position description) to the new organization.
  Competition                  Employees apply for vacant positions within the                        621
                               new organization, which includes hiring at the
                               GS-9 level, a new position introduced as part of the
                               reorganization.
  Reassignment                 The movement of employees to a different position                      369
                               at the same grade level in which their duties and/or
                               position description changes.
  Manager Placements           The placement of management into the new EUES                           82
                               organization.
  Interim Organizational       IT specialists at the GS-11 and GS-12 levels who                        71
  Adjustments                  remain unplaced will be placed into this interim
                               organization. They will be considered placed;
                               however, as vacancies in the organization become
                               available, these employees can apply.
  Other                        Job Swap – matching impacted employees who                              25
                               want to remain with the IRS with nonimpacted
                               employees who are interested in leaving the IRS
                               through an early retirement.
                               Hardship – the placement of employees due to
                               situations related to changes to work schedule.
     Total                                                                                          1,211
Source: The MOU and placement data as of December 2011 provided by EUES organization management.

Approximately 51 percent (621 of 1,211) of the employees competed for a position within the
EUES organization, while another 30 percent (369 of 1,211) of EUES organization employees
were reassigned to a different position within the organization. The EUES organization also
offered early retirement and voluntary separation incentive payments to targeted positions,
e.g., secretaries, budget analysts, and IT specialists in noncontinuing commuting areas.
According to information provided by EUES organization management, about 100 employees
elected these options.

Placed employees received training to handle new roles and responsibilities
A key factor for an organization to deliver a successful program is its people. Employees should
receive training and development that address business and technical needs. The MOU

                                                                                                     Page 5
                        The End-User Equipment and Services Organization
                        Successfully Planned Its Reorganization; However,
                       Program Measures and Efficiencies Can Be Improved



contained a provision regarding training for new positions within the EUES organization. It
referenced the guidance outlined in the NTEU Agreement, which states that the employer will
provide training to “all employees whose positions are abolished or significantly reengineered as
a direct result of organizational restructuring, work elimination, introduction of new duties,
transfer of work, or implementation of new technology.” Whenever possible, the training should
occur or be identified and scheduled within six months. In addition, Service Desk and Deskside
support personnel should look to capitalize on opportunities to collaborate and thereby apply a
more cross-functional approach to providing the most optimal on-site support.
The EUES organization underwent considerable change during its reorganization. The
organization implemented Information Technology Infrastructure Library principles into its
business processes, which resulted in all incidents and service requests being documented as
Service Desk tickets and problem management being added to the new organization. In addition,
the organization introduced a new position and reassigned employees to different positions
(including 85 employees who migrated from other IRS business units). Further, a year after the
last CSSC became operational, the EUES organization implemented the Knowledge
Incident/Problem Service Asset Manager (KISAM) system, the replacement to the Information
Technology Asset Management System. This is the tool that allows EUES organization
employees to address customers’ requests for assistance resolving hardware, software, and other
IT-related problems. Other tools, such as remote access tools, will be used by Service Desk
employees to take control of user computers to troubleshoot issues.
EUES organization management developed a comprehensive training curriculum for each
position within the various EUES functions. The curriculum details the training classes needed
to successfully perform in a given job. For example, an entry-level IT specialist, i.e., GS-5/7/9,
assigned to work the Service Desk would be required to take a course on Help Desk Telephone
Support. Whereas, a more experienced IT specialist, i.e., GS-11/12, assigned to work the
Service Desk would not need to take this course and instead would be assigned something more
advanced, like Adaptive Technology.
An analysis of training records obtained from EUES organization management showed Service
Desk and Deskside employees received training within the parameters defined by the MOU and
NTEU agreements to prepare them for their jobs. Figure 2 provides a summary of courses
completed by Service Desk and Deskside employees between January 2010 and January 2012.




                                                                                            Page 6
                            The End-User Equipment and Services Organization
                            Successfully Planned Its Reorganization; However,
                           Program Measures and Efficiencies Can Be Improved



                     Figure 2: Summary of Training for CSSC Employees

                                          Number of Employees
                 Course                   Completing the Course            Training Completion Dates
     KISAM Service Manager                            674                 Between August 2011 and
     Overview6                                                            January 2012
     Information Technology                           516                 Between January 2010 and
     Infrastructure Library                                               November 20117
     Foundations
     KISAM Asset Manager                              293                 Between June 2011 and
     Overview                                                             January 2012
     KISAM Incident                                   289                 Between August 2011 and
     Management                                                           January 2012
     Service Desk Specialist                          325                 Between November 2010 and
     Course                                                               September 2011
     Help Desk Telephone                              272                 Between November 2010 and
     Support                                                              September 2011
     KISAM Service Desk                               224                 Between September 2011 and
     Training                                                             January 2012
     KISAM Problem                                    57                  Between August 2011 and
     Management                                                           January 2012
    Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of training records provided by
    EUES organization management dated January 27, 2012.

We also interviewed six Service Desk employees regarding special training they might have
received to prepare them for providing the first line of customer service. We were informed that
in addition to completing a two-week training course about the Service Desk, each was assigned
an On-the-Job training instructor to provide further assistance.




6
  Modernization and Information Technology Services organization management mandated completion of the
KISAM Service Manager Overview training to allow employees to gain access to and use the KISAM.
7
  One employee completed the course in February 2009.
                                                                                                          Page 7
                          The End-User Equipment and Services Organization
                          Successfully Planned Its Reorganization; However,
                         Program Measures and Efficiencies Can Be Improved



Management Can Take Additional Steps to Advance
Cost-Effectiveness and Program Efficiencies Within the Customer
Service Support Centers
In a May 2003 report, the TIGTA reported that the Enterprise Service Desk (now known as the
Service Desk) measured its performance using first contact resolution, percent on time
resolution, tickets opened and closed, and average time a call was in the queue.8 The TIGTA
recommended that the IRS ensure that additional measures were established to measure the
effectiveness and efficiency of the Service Desk. Management responded stating they would
adopt new measures, e.g., call abandonment, call handling time, and cost per call, and would
manage those internally. Over time, the EUES organization created a monthly scorecard to
provide executives with information on performance measures relating to key activities within
the organization. The scorecard provided a high-level overview of the EUES organization’s
performance at an operational level, as well as measuring its accomplishment towards workforce
excellence. Supporting reports were also created to provide information at the tactical level.
However, as the current reorganization progressed, EUES organization leadership desired to
align the measures with its new strategic direction. During an April 2011 interactive video
presentation, EUES organization leadership provided employees an overview of the strategic
direction and advised of the importance of continually evaluating progress through performance
measures. EUES organization leadership also discussed implementing a balanced scorecard to
help provide a clear “line of sight” from strategy to service. This scorecard would be different
from the monthly scorecard it had previously used to measure performance.
In January 2012, EUES organization management finalized its balanced scorecard measure
summary. The scorecard provides 36 strategic measures, two for each strategic objective. Each
measure provides a definition, along with an explanation of how the measure supports the
objective. The balanced scorecard measure summary also reports a baseline measure and annual
targets for the next five fiscal years.9 The strategic measures from the balanced scorecard
measure summary will be loaded into a web-based program that will allow anyone within the
EUES organization to see a visual representation of the EUES organization’s progress in meeting
its strategic objectives. EUES organization management will regularly review the objectives and
measures and make any necessary revisions.
While the balanced scorecard helps EUES organization management communicate to employees
how the work they perform aligns with the organization’s strategic goals, additional actions
should be considered that will help EUES organization management determine if it is achieving


8
  TIGTA, Ref. No. 2003-20-109, End-User Equipment and Services Enterprise Service Desk Efficiency and
Effectiveness Can Be Improved, p. 10 (May 2003).
9
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                        Page 8
                          The End-User Equipment and Services Organization
                          Successfully Planned Its Reorganization; However,
                         Program Measures and Efficiencies Can Be Improved



cost-effectiveness and program efficiencies, especially within the CSSCs. Office of
Management and Budget Circular A-123, Management’s Responsibility for Internal Control,10
states that managers are responsible for increasing productivity and controlling costs of agency
operations. The Government Accountability Office’s Standards for Internal Control in the
Federal Government 11 stipulates that program managers need both operational and financial data
to determine whether they are meeting their goals for effective and efficient use of resources.

EUES organization management should introduce measures that will help assess
the cost-effectiveness of the CSSCs
The balanced scorecard measure summary includes a measure for first contact resolution. The
EUES organization defines first contact resolution as follows, “first contact completion applies
when the first person the customer reaches answers the question, resolves the problem, or
dispatches service where appropriate.” Interviews we conducted with Service Desk employees
confirmed that it is common for tickets to be escalated to Deskside that could have been resolved
by the Service Desk. The escalation of tickets occurred primarily due to a lack of experience or
training among the staff working at the Service Desk. We conducted research and determined
that when service is dispatched or escalated to another service, like the Deskside, the cost of
resolution increases.
For the CSSCs within the EUES organization to progress towards meeting the Chief Technology
Officer’s goal of being classified as world class, the CSSCs need to continually demonstrate
gains in efficiencies and cost-effectiveness. Therefore, the CSSCs should make every effort to
resolve tickets within the purview of the Service Desk’s defined responsibility. EUES
organization management should define and implement a measure that would allow it to monitor
the percentages of tickets resolved by the Service Desk.
To meet the mission of delivering cost-effective service, EUES organization management should
track the cost per contact at the Service Desk and Deskside levels. EUES organization
management previously calculated and reported the Service Desk cost per contact to the
Department of the Treasury; however, this measure is no longer required. Although EUES
organization management plans to capture a total cost per user (calculated by taking the annual
EUES organization cost divided by the total number of IRS users) as part of its new strategic
direction, this measure alone will not allow EUES organization management to identify where
changes might need to take place within the organization. EUES organization management will
have to continue to drive a lower cost per user that would demonstrate the organization delivers
its services in the most cost-effective manner.


10
   Office of Management and Budget, OMB Circular No. A-123 (Revised), Management’s Responsibility for
Internal Control (Dec. 2004).
11
   Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                    Page 9
                          The End-User Equipment and Services Organization
                          Successfully Planned Its Reorganization; However,
                         Program Measures and Efficiencies Can Be Improved



Management Action: EUES organization management adopted a revised definition of first
contact resolution on April 10, 2012. The revised measure will capture the percentage of total
contacts resolved at the Service Desk level and no longer references “dispatching service where
appropriate.” However, the revised measure includes self-service password resets. If EUES
organization management mandates usage of the password management tool, it will no longer
need to include this in its calculation and the goal for first contact resolution will need to be
adjusted.

EUES organization management should mandate use of the password
management tool
In Fiscal Year 2010, the Service Desk performed 122,431 password resets, and in Fiscal
Year 2011, it performed 130,806 password resets, with 12,000 of these occurring during a
one-month period. These high password reset rates occurred because management has not
mandated the use of the password management tool.
In May 2003, the TIGTA reported that self-service tools, such as the password management tool,
were not being maximized because EUES organization management wanted to provide users
with several service options without requiring their use.12 IRS management responded that it
would ensure a self-service tool for password management would be deployed by October 2003;
however, the tools would be optional because some of its customers could not use web-based
tools. In October 2003, Modernization and Information Technology Services (MITS)
organization13 management issued a memorandum announcing the implementation of a password
management system that would allow employees to reset their passwords without having to
contact the helpdesk. MITS organization management emphasized the importance of the tool
because, “37 percent of the total calls, or roughly 300,000 calls per year” were password resets.
More importantly, data showed that helpdesk employees spent an average of eight minutes
answering these calls, taking helpdesk resources away from handling more complex issues.
In July 2004, MITS organization management subsequently issued a memorandum citing
progress using the password management tool and stated it was not enough. Thus, MITS
organization management issued the directive that the helpdesk would no longer reset or unlock
passwords for those employees who could utilize the password management tool. Instead, those
employees would be required to go through their managers, who in turn would contact the
helpdesk on their behalf to have their passwords unlocked or reset. Two years later, MITS
organization management issued a memorandum citing the successes of the password
management tool (90 percent of eligible unlocks and resets accomplished using the tool) and
rescinded the requirement to have an employee’s manager contact the helpdesk requesting a
reset. However, the memorandum still mandated the use of the tool.

12
   TIGTA, Ref. No. 2003-20-109, End-User Equipment and Services Enterprise Service Desk Efficiency and
Effectiveness Can Be Improved, p. 7 (May 2003).
13
   On July 1, 2012, the MITS organization was renamed the Information Technology organization.
                                                                                                     Page 10
                       The End-User Equipment and Services Organization
                       Successfully Planned Its Reorganization; However,
                      Program Measures and Efficiencies Can Be Improved



In July 2011, the MITS organization published a news article on its intranet about the password
management tool. The article stated that the Service Desk received 12,000 calls in one month
alone for password resets. MITS organization management indicated that if the calls continued
to increase, they would need to enforce mandatory use of the tool as was previously done. At the
conclusion of fieldwork, EUES organization management advised that they worked with the
Solution Design and Development team to conduct a marketing campaign to address the low use
of the password management tool. EUES organization management research found that
95 percent of IRS employees had configured the tool. Before the campaign, 59 percent of
password resets were accomplished using the tool. After the campaign, the statistics showed an
increase to 77 percent; however, we did not validate these results.
Mandating use of this tool will allow the IRS to achieve the full benefits from the tool while
freeing up Service Desk employees to focus on resolving other complex issues and increase its
first contact resolution rate. Further, as the EUES organization continues to mature in its
reorganized state and looks towards the future, management should assess providing more
self-service options to allow its customers to self-diagnose and self-solve problems. Doing so
would allow the EUES organization to demonstrate its efficiencies and would help with
achieving more cost-effective services.
Management Action: EUES organization management advised us of plans to market the use of
the password management tool routinely throughout the year. While this is a step in the right
direction to change users’ behavior, we are concerned that in the months between the marketing
campaigns, users will revert to contacting the Service Desk for assistance, similar to when MITS
organization management experienced a 90 percent usage rate, lifted the mandated use of the
tool, and subsequently experienced only a 61 percent usage rate.

Recommendations
The Chief Technology Officer should:
Recommendation 1: Implement additional measures to help demonstrate cost-effectiveness
(e.g., cost per interaction) and efficiencies and to identify opportunities for improvement.
       Management’s Response: The IRS agreed with the recommendation and will
       conduct research to determine whether or not data are available that will enable
       additional measurement of cost-effectiveness and efficiencies and, if available,
       implement those measures.
Recommendation 2: Collaborate with IRS management and the NTEU to mandate the use of
the self-help password management tool for those customers with access to the tool.
       Management’s Response: The IRS agreed with the recommendation and will
       establish a policy to mandate the use of the self-help password management tool for
       customers with access to the tool.

                                                                                        Page 11
                              The End-User Equipment and Services Organization
                              Successfully Planned Its Reorganization; However,
                             Program Measures and Efficiencies Can Be Improved



                                                                                                   Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the effectiveness and efficiency of the new business
processes and the implementation of personnel placement and mitigations associated with the
reorganization of the EUES organization. To accomplish our objective, we:
I.         Determined how effectively the EUES organization planned for the reorganization.
           A. Interviewed EUES organization management and reviewed documentation to
              determine the methodology/process used to plan for the reorganization of the EUES
              organization.
           B. Determined whether EUES organization management completed the documents or
              supplied the information items required in Internal Revenue Manual Section 1.1.4.5
              (February 8, 2011).1
           C. Reviewed the IRS Strategic Plan, the EUES organization’s Strategic Direction
              document, and the IRS Desktop Business Process Reengineering Plan to determine
              the scope of the reorganization.
           D. Determined if the EUES organization completed the actions outlined in the
              April 2010 MOU for implementation of personnel placement and mitigations
              associated with the reorganization.
II.        Assessed how effectively the EUES organization placed its employees during the
           reorganization and reviewed the training employees received.
III.       Assessed how effectively employees are performing and how effectively the new tools
           and processes are operating under the new EUES organization.
           A. Conducted site visits to the Headquarters office and the Midwest and Southeast
              CSSCs.
           B. Evaluated the efforts to improve the operational efficiency of the EUES organization
              through the new tools and processes that were implemented during the reorganization.
IV.        Determined how the EUES organization plans to measure the success of the
           reorganization.




1
    Internal Revenue Manual Section 1.1.4.5 means, Part one, Chapter 1, Section 4, Subsection 5.
                                                                                                       Page 12
                       The End-User Equipment and Services Organization
                       Successfully Planned Its Reorganization; However,
                      Program Measures and Efficiencies Can Be Improved



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the policies and procedures for
implementing a reorganization, procedures for Service Desk and Deskside employees to perform
their duties, and guidance for training employees in new positions. We evaluated these controls
by interviewing management and Service Desk and Deskside employees and by reviewing
policies and procedures (for example, the Internal Revenue Manual and Federal guidance such as
the Office of Management and Budget circulars) and relevant supporting documentation.




                                                                                       Page 13
                      The End-User Equipment and Services Organization
                      Successfully Planned Its Reorganization; However,
                     Program Measures and Efficiencies Can Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny R. Verneuille, Director
Diana M. Tengesdal, Audit Manager
Tina Wong, Acting Audit Manager
Mark K. Carder, Lead Auditor
Chinita M. Coates, Auditor
Allen K. Henry, Program Analyst
Hung Dam, Information Technology Specialist
Daniel Oakley, Information Technology Specialist




                                                                                     Page 14
                     The End-User Equipment and Services Organization
                     Successfully Planned Its Reorganization; However,
                    Program Measures and Efficiencies Can Be Improved



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, End-User Equipment and Services OS:CTO:UNS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 15
                            The End-User Equipment and Services Organization
                            Successfully Planned Its Reorganization; However,
                           Program Measures and Efficiencies Can Be Improved



                                                                                                Appendix IV

                    Illustration of End-User Equipment
                         and Services Organization
                                          (Pre-Reorganization)




Source: EUES Organization Chart provided to the IRS Human Capital Office as part of business case for
reorganization. ACIO = Associate Chief Information Officer; Asst = Assistant; ES = Executive Service;
Exec = Executive; IT Spec = IT Specialist; Mgmt = Management; Mgt =Management; POD = Post of Duty;
Prg =Program Analyst; FTE = Full-Time Equivalent;1 AISO = Appeals Information Systems Office.




1
  A measure of labor hours in which one FTE is equal to eight hours multiplied by the number of compensable days
in a particular fiscal year. For Fiscal Year 2011, one FTE was equal to 2,088 staff hours. For Fiscal Year 2012, one
FTE is equal to 2,080 staff hours.
                                                                                                           Page 16
                                                              The End-User Equipment and Services Organization
                                                              Successfully Planned Its Reorganization; However,
                                                             Program Measures and Efficiencies Can Be Improved



                                                                                                                                                                                           Appendix V

                             Illustration of High Performing Organization
                                                                                           (Post-Reorganization)
                                                                                     ACIO
                                                                                      1.0
                                                                                    NC/DCA
                                                                                     1373     (3FTE)
                                                                                                                                             These functions are out of scope for seat
                                                                                                                                             management. Therefore, the Full-Time
                                                                                                                                             Equivalent positions were excluded from the
                                                                                 Deputy ACIO
                                                                                     2.0                                                     blueprint count [1,373 less 87 = 1,286].
                                                                                    NC/DCA (3FTE)

                                                             1370


           3.0 Customer Service                                                                         4.0 Operations Service                                 5.0 Business Services and
962              Support                                                                          223          Support                                               Management                  182
                  NC/DCA                                                                                       NC/DCA                                                   NC/DCA
                           (3FTE)                                                                                         (3FTE)                                                  (3FTE)


                 3.1 Southeast                                                                          4.1 Service, Asset,                                                                                  5.3 Business
                                           3.1.5-7 Virtual         3.1.1-4                         96   and Configuration                                            5.1 Service Level      28         44
  104          Customer Service                                                                                                                                        Management                           Administration
                Support Center             Service Desk           Deskside                                 Management                                                                                          Austin (2)
                                             Groups (3)           Groups (4)                                Ogden (3)                                                  NC/DCA (2)
                Chamblee (5)
                                                 46                   53                                                                   4.1.5 Inventory
                                                                                                                                    15
                  3.2 Western                                                                            4.1.1 Hardware                     Management                        16     5.1.1 Service
                                                                                                                                               Ogden                                                                15       5.3.1 Training
  172           Customer Service          3.2.8-11 Virtual         3.2.1-7          3.2.12              Asset Management 13                                                             Design
                 Support Center            Service Desk           Deskside            SOI                                                                                                                                      Cincinnati
                                                                                                                A                                                                      NC/DCA
                  Fresno (4)                Groups (4)            Groups (7)     Development &               NC/DCA
                                                 62                  87           Maintenance                                                                                                                                5.3.2 Budget /
                 3.3 Northeast                                                         19                4.1.2 Hardware                    4.1.6 Austin                       10     5.1.2 Service                  15
                                                                                                                                   11                                                                                          Financial
  165          Customer Service           3.3.6-11 Virtual         3.3.1-5                              Asset Management 13              Equipment Depot                                Review
                Support Center                                                                                                                                                     Oakland-Bay Area                          Management
                                           Service Desk           Deskside                                      B
                Philadelphia (4)                                                                                                                                                                                                 Austin
                                            Groups (6)            Groups (5)                               Philadelphia
                  3.4 Midwest                    93                  68
                                                                                                                                                                                                                    12     5.3.3 Human
               Customer Service                                                                           4.1.3 Software 11
  155                                                                                                                                      4.1.7 Ogden                                                                      Resources
                Support Center            3.4.6-11 Virtual         3.4.1-5                              Asset Management           11
                                           Service Desk           Deskside                                                               Equipment Depot                                                                 Oakland-Bay Area
                 Covington (4)                                                                                 MCC
                                            Groups (6)            Groups 5)                                                                                       5.2 Project &
                3.5 Southwest                   95                   56                                                                                             Workload          58
  142          Customer Service                                                                         4.1.4 Configuration 12
                                                                                                           Management                                             Management
                Support Center            3.5.6-10 Virtual         3.5.1-5                                                                    4.1.8*              NC/DCA (2)
                  Austin (4)               Service Desk           Deskside                                     Ogden                 7
                                                                                                                                               VITA
                                            Groups (5)            Groups (5)                                                               Support Group                                                    5.4 Continual
               3.6 Headquarters                 78                   60                                                                          7                                                     39      Process
      83       Customer Service                                                                                                                                               5.2.1 Project Group
                                                                                                                                                                         13                                 Improvement
                Support Center                                                                          4.2 Standards,                                                                 A
                                                                                                                                                                                                             NC/DCA (2)
                  NC/DCA (5)               3.6.5-6 Virtual         3.6.1-4                         79     Release, &                                                                NC/DCA
                                           Service Desk           Deskside                                  Change
                                             Groups (2)           Groups (4)                             Management
                                          30                 48                                            MCC (4)                       4.2.3 Integration &
      78   3.7 Operational Planning                                                                                                 11                                                                             12       5.4.1 Operational
                                                                                                                                               Testing                   14 5.2.2 Project Group
               & Control Center                                                                                                                                                      B                                         Assessment
                                                                                                                                                MCC
            Laguna – Mgr & 10 ee’s                  61        3.7.1*                                      4.2.1 Security                                                          Atlanta                                        NC/DCA
                                                              IDSE                                          Standards         12
              Brookhaven – 6 ee’s
                                                                4                                              MCC                         4.2.4 Release
      60                                                                                                                            16                                                                             13        5.4.2 Reports
                                                                                                                                           Management
              3.8 Solution Design                                                                                                                                             5.2.3 Project Group                               Analysis
                                                                                                                                            Philadelphia                 13
               and Development                                                3.7.1.1*                  4.2.2 Development                                                              C                                        Fresno
                 Chamblee (2)                                           Quality Support Ctr                & Standards                                                              Seattle
                                                                                                                          18
                                                                             Memphis                      MCC – Mgr & 9                    4.2.5 Change
                                                                                                                                   18                                                                              12    5.4.3 Performance
                              3.8.1 Knowledge                                    7                             ee’s                        Management
                        12                                                                                                                                                                                                 Measurement
                                Management                                                                 NYC – 8 ee’s                    Philadelphia
                                                                                                                                                                                                                              Chicago
                                   Austin                                                                                                                                      5.2.4 Capacity,
                                                                           3.7.1.2 – 11*
                                                                                                   45   4.3 Acquisitions                                                        Continuity, &
                                                                              CDMC
                                                                                                            Strategy                                                     16       Availability
                        13 3.8.2 Vendor Support                                 50
                                                                                                          NC/DCA (3)                                                            Management
                                  Liaison
                                                                                                                                                                              NC/DCA – Mgr & 7         10    5.5 Security
                                 Chamblee
                                                                                                                           4.3.1 Commodities &                                       ee’s                      NC/DCA
                                                                                                                  13       Contract Management                                 Atlanta – 8 ee’s
                              3.8.3 Philadelphia                                                                                  Group A
                        11
                              End User Problem                                                                                   (NC/DCA)
                                Management
                                                                                                                           4.3.2 Commodities &
                                                                                                                  13       Contract Management
                                3.8.4 Fresno                                                                                     Group B
                        11    End User Problem                                                                                    Dallas
                                Management

                                                                                                                  16         4.3.3 Purchasing
                                   3.8.5
                               San Francisco                                                                                      Andover
                        11
                              End User Problem
                                Management




           Source: EUES organization chart provided to the IRS Human Capital Office as part of the business case for
           reorganization.

                                                                                                                                                                                                            Page 17
                        The End-User Equipment and Services Organization
                        Successfully Planned Its Reorganization; However,
                       Program Measures and Efficiencies Can Be Improved



                                                                               Appendix VI

                               Glossary of Terms

                Term                                      Definition
Balanced Scorecard              A strategic planning and management system used to align
                                business activities to the vision and strategy of the
                                organization, improve internal and external communications,
                                and monitor organizational performance against strategic
                                goals.
Best Practice                   A technique or methodology that, through experience and
                                research, has proven to reliably lead to the desired result.
General Schedule                The classification and pay system established under 5 United
                                States Code Chapter 51 and subchapter III of Chapter 53. It is
                                a rate of basic pay for professional, technical, administrative,
                                and clerical professionals working for the Federal
                                Government.
High-Performing Organization    An organization within a Federal agency that performs
                                commercial activities and whose cost-efficiency and
                                performance meet or exceed that of comparable providers,
                                whether public or private.
Incident                        An unplanned interruption to or a reduction in the quality of
                                an IT service.
Information Technology          A set of concepts and techniques for managing IT
Infrastructure Library          infrastructure, development, and operations.
Information Technology          An individual responsible for quickly providing a good
Specialist (Service Desk)       analysis of an incident and/or a solution to it in order to
                                restore the disrupted service in accordance with Service Level
                                Agreements. This group is generally staffed with technical
                                generalists who are expected to resolve a high percentage of
                                common problems or routine service matters. IT specialists
                                have the access and utilize knowledge to resolve the majority
                                of all incidents. This position is interchangeable with the
                                duties and responsibilities of IT specialists at the Deskside.


                                                                                        Page 18
                         The End-User Equipment and Services Organization
                         Successfully Planned Its Reorganization; However,
                        Program Measures and Efficiencies Can Be Improved



Knowledge Incident/Problem       Maintains the complete inventory of IT and non-IT assets, and
Service Asset Manager            computer hardware and software. It is also the reporting tool
                                 for problem management with all IRS developed applications
                                 and shares information with the Service Desk. This system
                                 replaced the Information Technology Assets Management
                                 System.
Memorandum of Understanding      An agreement between the IRS and the NTEU regarding
                                 bargaining unit employees holding a permanent position of
                                 record within the EUES organization.
Mitigation Strategies            Strategies used to avoid or lessen the number or severity of
                                 involuntary personnel actions that result from an organization
                                 change, e.g., Voluntary Early Retirement Authority,
                                 Voluntary Separation Incentive Payment, Job Swaps, Grade
                                 and Pay Retention.
Problem                          A cause of one or more incidents.
Queue                            A sequence of messages or jobs held in temporary storage
                                 waiting processing.
Remote Tools                     Software tools that allow a user to remotely administer
                                 another computer using an interface.
Seat Management                  The management of everything involved in providing
                                 computers and computer support to employees, including
                                 desktop and helpdesk services, such as helpdesk level one,
                                 desktop support, utility services support, and local area
                                 network support.
Service-Level Agreement          An agreement between the MITS organization and IRS
                                 business units which establishes the expectation of services
                                 for supporting the IT functionality of the business.
Service Request                  A request from a user for information, advice, or access to an
                                 IT service, e.g., reset a password or provide services for a new
                                 user. Service requests are usually handled by a Service Desk.
Triage                           The initial steps performed by the Service Desk in
                                 determining the priority of the customer’s request.
Voluntary Early Retirement       An opportunity to retire in advance of meeting the age and/or
Authority                        service requirements normally needed for retirement.


                                                                                         Page 19
                      The End-User Equipment and Services Organization
                      Successfully Planned Its Reorganization; However,
                     Program Measures and Efficiencies Can Be Improved



Voluntary Separation Incentive   Commonly referred to as buyouts. Lump-sum payments of up
Payment                          to $25,000 paid to specifically impacted employees to
                                 enhance resignation or retirement. Buyouts are targeted at
                                 employees in specific grades, series, and locations, and are
                                 used to help avoid Reductions in Force and minimize
                                 involuntary separations. Agencies, including the IRS, must
                                 obtain authority to offer buyouts to their employees from the
                                 Office of Personnel Management.




                                                                                      Page 20
        The End-User Equipment and Services Organization
        Successfully Planned Its Reorganization; However,
       Program Measures and Efficiencies Can Be Improved



                                                  Appendix VII

Management’s Response to the Draft Report




                                                            Page 21
 The End-User Equipment and Services Organization
 Successfully Planned Its Reorganization; However,
Program Measures and Efficiencies Can Be Improved




                                                     Page 22
